No. 20-1167

IN THE
SUPREME COURT OF THE UNITED STATES
_______________________________________
JOSE SUSUMO AZANO MATSURA,
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

_______________________________________
PETITIONER’S REPLY TO SOLICITOR GENERAL’S
OPPOSITION TO GRANTING PETITION FOR WRIT OF CERTIORARI
_______________________________________

Charles M. Sevilla
* Counsel of Record
Law Offices
402 W. Broadway, #720
San Diego, CA 92101
(619) 232-2222
chuck@charlessevilla.com
Attorney for Petitioner Azano

IN THE SUPREME COURT OF THE UNITED STATES
_______________________________________
No. 20-1167
JOSE SUSUMO AZANO MATSURA, Petitioner,
v.
UNITED STATES OF AMERICA
_______________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
_______________________________________
PETITIONER’S REPLY MEMORANDUM TO THE OPPOSITION OF
THE UNITED STATES
Petitioner Azano respectfully files this reply to the April 26, 2021 Opposition
of the Solicitor General to the grant of certiorari [hereafter referred a “Opposition”].
I. This is Not an Interlocutory Appeal
The concept of an interlocutory stage of proceedings is that there is litigation
yet to proceed to achieve a final disposition. There is no such avenue in petitioner’s
case. His case is final.
The Opposition deems there to be a nonfinal ruling on the firearm count to
permit litigation in the district court: “If petitioner ultimately is dissatisfied with
the district court’s disposition on remand, and if that disposition is upheld in any
subsequent appeal, petitioner will be able to raise his current claim, together with
any other claims that may arise with respect to his proceeding, in a single petition
for a writ of certiorari.” Opp., p. 2.

1

This is incorrect. There is a final judgment in this matter. Since the filing of
his notice of appeal in 2017,1 the firearm issue was continuously alive in the Ninth
Circuit (and this Court) until on December 3, 2020, when the Circuit affirmed the
district court judgment and denied petitioner’s petition for rehearing and petition
for review en banc on Rehaif v. United States,139 S. Ct. 2191 (2019), and other
related claims. There are no remaining avenues of litigation of petitioner’s case in
the lower courts and nothing “interlocutory” about petitioner’s pending petition for
certiorari.
Even if there were a possibility of litigation below, invocation of the doctrine
is a matter of discretion to grant review. E.g., Gillespie v. United States Steel Corp.
(1964) 379 U.S. 148, 153 (“delay of perhaps a number of years in having the
[parties]... rights determined might work a great injustice on them.”) The Court has
general authority to consider issues even if there were, by some happenstance that
petitioner cannot fathom, a nonfinal order. See Major League Baseball Players
Ass'n v. Garvey (2001) 532 U.S. 504.2
The importance of the questions petitioner has raised with respect to the

1

Filed 11/09/17. See Dist. Court Docket, 3:14-cr-00388-MMA Doc 873.

2

“Garvey contends that, because the Association's petition was filed more
than 90 days after Garvey I, we cannot consider a challenge raising issues
resolved in that decision. But there is no question that the Association's
petition was filed in sufficient time for us to review Garvey II, and we have
authority to consider questions determined in earlier stages of the litigation
where certiorari is sought from the most recent of the judgments of the Court
of Appeals. [Citations]” Garvey, supra, p. 508, fn. 1

2

firearm possession by a visa holder warrant invocation of this Court’s certiorari
authority. Petitioner submits that for a person with no criminal record and valid
papers to be in the United States, mere knowledge that one is a visa holder and
possesses a gun is an insufficient basis for criminal liability. It was plain and
reversible error not to inform the jury of the knowledge element of the statute and
its meaning. See Petitioner’s petition for certiorari, pp. 12-18. Petitioner also
raises the vagueness of the statute as applied to him, and whether a visa holder
may possess an unloaded firearm in his home under the Second Amendment. These
important issues warrant review.
II. The Opposition Waived the Interlocutory Claim
When petitioner filed his first petition for certiorari raising Rehaif v. United
States, 139 S.Ct. 2191 (2019), on October 25, 2019 (No. 19-568), the Solicitor filed a
Memorandum with this Court on December 27, 2019, stating the Court should
grant the petition, vacate the Ninth Circuit decision, and remand the matter (GVR):
Petitioner contends (Pet. 10-12) that his conviction for possessing a
firearm as an alien admitted to the United States under a nonimmigrant visa, in violation of 18 U.S.C. 922(g)(5)(B) and 924(a)(2), is
infirm because the courts below did not recognize that knowledge of
status is an element of that offense. In Rehaif v. United States, 139 S.
Ct. 2191 (2019), this Court held that the mens rea of knowledge under
Sections 922(g) and 924(a)(2) applies "both to the defendant's conduct
and to the defendant's status." Id. at 2194. Accordingly, the appropriate course is to grant the petition for a writ of certiorari, vacate the
decision below, and remand the case for further consideration in light
of Rehaif.
On February 24, 2020, this Court granted petitioner’s petition for certiorari
and remanded the case to the Ninth Circuit for consideration of the firearm count in

3

light of Rehaif v. United States, 139 S.Ct. 2191 (2019). S19-568. By December 27,
2019, when the Opposition was filed, petitioner’s sentence had been reconfirmed in
the district court on November 18, 2020. See Pacer Doc. 985, Judgment in 14 CR
0388 MMA (So. District of Calif.) Had there been an “interlocutory” appeal issue to
raise, the time for the Solicitor to raise it in this Court was in reply to petitioner’s
first petition for certiorari instead of recommending the Court GVR the petition on
December 27, 2019. As such, the issue should be deemed waived. See Rule 15 (2),
Rules of the Supreme Court: “Any objection to consideration of a question presented
based on what occurred in the proceedings below, if the objection does not go to
jurisdiction, may be deemed waived unless called to the Court's attention in the
brief in opposition.”
But as petitioner has stated, only the second Ninth Circuit decision decided
the firearm questions under Rehaif . As to that court and the district court, the
decision is final, and the questions presented here are properly before the Court.
III. The Alternate Suggestion to Hold the Petition until Greer Is Decided.
The Opposition suggests the Court may wish to hold petitioner’s petition
until Greer v. United States (No. 19-8709) is decided. The question presented in
Greer, as stated in his petition for certiorari, is: “Whether when applying
plain-error review based upon an intervening United States Supreme Court
decision, a circuit court of appeals may review matters outside the trial record to
determine whether the error affected a defendant’s substantial rights or impacted
the fairness, integrity, or public reputation of the trial?”

4

Greer reviews a conviction of a felon in possession of a firearm and the issue
of his knowledge of prohibited felon status under Rehaif. Unlike, Greer, there is no
question in petitioner’s case concerning the use of factual material outside the trial
record to refute plain error, and it does not involve a felon in possession conviction.
Petitioner requests the Court to grant his petition for certiorari review.
April 27, 2021
Respectfully submitted,

s/Charles M. Sevilla
__________________________________
CHARLES M. SEVILLA
Counsel for the Petitioner
Law Offices
402 W. Broadway, #720
San Diego, CA 92101
(619) 232-2222
chuck@charlessevilla.com

5

